T
he Library of Congress
Office of the Inspector General




    Semiannual Report to the Congress
                         March 31, 2008
                                                             The Library of Congress’ Thomas Jefferson Building is noted for its numerous
                                                             exhibitions featuring one of the world’s largest collections of culture and
                                                             creativity. The building currently hosts several exhibits that were featured in the
                                                             April 12, 2008 celebration of the Library experience, including Thomas Jefferson’s
                                                             Library, The Library of Congress Bible Collection, Creating the United States, Art &
                                                             Architecture of the Thomas Jefferson Building, and Exploring the Early Americas, all
                                                             of which employ interactive technologies that bring the Library’s unparalleled
                                                             collections to life.


                                                             This issue of our Semiannual Report to the Congress includes highlights from a
                                                             few of the Library’s current exhibitions; in particular, Exploring the Early Americas,
                                                             which features selections from the more than 3,000 rare maps, documents,
                                                             paintings, prints, and artifacts that make up the Jay I. Kislak Collection of
                                                             the Library of Congress. This exhibition has three major themes: pre-contact
                                                             America, Explorations and Encounters, and Aftermath of the Encounter. The
                                                             exhibition provides glimpses into the complex and fascinating past of the
                                                             Americas. It provides insight into the indigenous cultures, the drama of the
                                                             encounters between Native Americans and European explorers and settlers, as
                                                             well as the pivotal changes caused by the meeting of the American and European
                                                             worlds.


 The closing gallery of the exhibition includes two extraordinary maps by Martin Waldsemüller which depict a world enlarged by
 the presence of the Western Hemisphere. The first image in this report depicts three of the twelve panels of Waldsemüller’s 1507
 world map, the first known to display the name “America.”


 This exhibition is available online at www.loc.gov/exhibits/earlyamericas/




 Portions of this text from the Exploring the Early Americas brochure.




Cover: West Entrance of the Thomas Jefferson Building, Library of Congress,
displaying prominent exhibition banners.
   April 30, 2008


A Message From the Inspector General

I am pleased to present our Semiannual Report to the Congress for the period ended March 31, 2008.


In the last six months we prepared reports on the Office of Contracts and on the Library’s requirements analysis for
the proposed Fort Meade Logistics Center. We also reported on the Raiser’s Edge software program, long-distance
telephone service, handling of imported collections materials, and the Library’s and Madison Council’s fiscal year
2007 financial statements. In addition, we conducted investigations on topics such as the misuse of library computers
and networks and various alleged violations of ethics rules and Library regulations. Finally, in the last six months, we
commented on the ongoing Copyright reengineering project and testified before the House Appropriations Committee at
the Library’s fiscal year 2009 budget hearing.


In the next six months, we will report on in-progress reviews of the Library’s disbursing operations, Federal Employment
Compensation Act program, mail services, additional Copyright reengineering activities, and other topics.


We appreciate the cooperative spirit Library managers and staff have shown during our reviews. We are especially encouraged
by the Library’s strong support for revisions to its computer use banner and to regulations governing the use of Library
computer resources. In addition, we commend the Chief Operating Officer for taking prompt positive action to address the
findings in our report on the Workforce Diversity Office, issued just seven months ago, as well as her prompt response to the
findings in both of our recent reports on the Office of Contracts. We note that our new “implemented recommendations”
section has grown to more than two pages in this semiannual period, evidencing management’s commitment to continued
improvement.




Karl W. Schornagel
Inspector General
          Table of Contents


          Introduction and Definitions.........................................................................................                                                   1
          Audits, Surveys, and Reviews............................................................................................................                                2
                 Office of Contracts...........................................................................................................................................   2
                 Fort Meade Logistics Center.............................................................................................................................         3
                 Raiser’s Edge Software Program...................................................................................................................... 4
                 Long-Distance Telephone Service..................................................................................................................... 4
                 Handling of Imported Collections Materials..................................................................................................... 5
                 Library of Congress Fiscal Year 2007 Financial Statements...............................................................................         6
              Madison Council Fiscal Year 2007 Financial Statements................................................................................               6
              Copyright Reengineering Project.................................................................................................................... 7
          Investigations........................................................................................................................................ 9
              Significant Criminal and Administrative Investigations..................................................................................            10
                 Follow-up on Investigative Issues from Prior Reporting Periods.......................................................................                            12
          Unimplemented Recommendations.................................................................................................                                          14

          Implemented Recommendations.......................................................................................................                                      18

          Funds Questioned or Put to Better Use.........................................................................................                                          22

          Instances Where Information or Assistance Requests Were Refused....................................                                                                     23

          Status of Recommendations Without Management Decisions................................................                                                                  23

          Significant Revised Management Decisions.................................................................................                                               23

          Significant Management Decisions With Which OIG Disagrees.............................................                                                                  23

          Follow-up on Prior Period Recommendations ............................................................................                                                  23

          Other Activities..................................................................................................................................                      24
                 Peer Review of the National Archives and Records Administration OIG..........................................................                                    24
                 House Oversight and Government Reform Committee...................................................................................                               24
                 Congressional Request on OIG Law Enforcement Authority..........................................................................                                 25
          Review of Legislation and Regulations.........................................................................................                                          26




Opposite, Leftmost three panels of the Waldsemüller map showing the word “America” for the first time known on a document
We perform many types of services; among them:


Attestations,       which involve examining, reviewing, or applying agreed-
upon procedures on a subject matter, or an assertion about a subject matter.
Attestations can have a broad range of financial or nonfinancial focuses, such
as the Library’s compliance with specific laws and regulations; assertions or
assumptions made in a cost/benefit, breakeven, or requirements analysis;
validation of performance against performance measures; or reasonableness of
cost.


Financial Audits,            which determine whether financial statements
present fairly the financial position, results of operations, and cash flows in
conformity with generally accepted accounting principles, and whether an
entity has adequate internal control systems and complies with applicable laws
and regulations.


Investigations,        which are conducted based on alleged or suspected
wrongdoing by agency employees, contractors, recipients of financial assistance,
and others responsible for handling federal resources. Violations of Library
regulations or fraud committed against the Library can result in administrative
sanctions and/or criminal or civil prosecution.


Nonaudit Services, which are equivalent to consulting services in the
private sector and usually involve providing advice or assistance to Library
managers without necessarily drawing conclusions, or making recommendations.
Auditors are cautious when performing nonaudit services because providing
them may jeopardize the independence needed to later audit that subject area.

Performance Audits,             which address the efficiency, effectiveness, and
economy of the Library’s programs, activities, and functions; provide information
to responsible parties to improve public accountability; facilitate oversight and
decision making; and initiate corrective action as needed.
Introduction and Definitions

The mission of the Office of the Inspector General is to promote
economy, efficiency, and effectiveness by detecting and preventing
waste, fraud, and abuse.

To accomplish our mission, we conduct audits and investigations.


Our philosophy is to be proactive. We believe this approach results in a more efficient use of resources by detecting
and preventing problems early. Accordingly, we are following several key projects throughout the Library and rendering
assistance and making recommendations as needed.


Our staff is educated and certified in various disciplines. We are, collectively, three certified public accountants, three
attorneys, one certified internal auditor, two special agents, one investigator, one Master of Library Science, and other
highly qualified staff.


Our goals, objectives, strategies, and performance indicators can be found in our Strategic Plan, available on our Web site
at www.loc.gov/about/oig.




                                                                                       Semiannual Report to the Congress 1
       Audits, Surveys, and Reviews

       Office of the Librarian                                         •	 inadequate knowledge of the contracting process
       Office of Contracts                                             throughout the entire procurement chain, from Library
       Lack of Compliance with Library                                 staff involved in initiating procurements to Contracts
       Contracting Policy is Widespread                                Office staff charged with executing them;
       Special Project No. 2008-SP-101
       March 2008
                                                                       •	 contract review procedures, including a high-level
                                                                       management review procedure, that do not provide
       The Library acquires about $189 million in goods and            effective assurance that Library procurement activities
       services each year, and contracting actions are the third       conform to applicable requirements;
       largest use of Library funds. In view of the significance
                                                                       •	 missing and incomplete official contract files; and
       of the contracting function, we undertook a two-part
       assessment of the Library’s Contracts Office. We issued a       •	 a technically limited
       report on the first part of our assessment in September 2007,   software          contracting
       which revealed several significant operational weaknesses       module in the Library’s
       threatening the Library’s ability to obtain quality goods       core financial system that
       and services at a fair price and in a timely fashion. The       may be impeding its ability
       weaknesses included a longstanding vacancy in the Office        to    effectively    manage
       of Contracts and Grants Management’s Director position          procurement activities.
       and a continuing shortage of permanent contracting staff,       Collectively, these findings
       among other things. Management generally agreed with            indicate that the Library
       our findings and is taking action to implement the report’s     has little assurance it is
       recommendations.                                                obtaining the best value
       We issued a report on the second part of our assessment         for its contracting dollar,
       in March 2008. For this, we engaged Suntiva Executive           and its ability to withstand
       Consulting (Suntiva) to evaluate whether Library                challenges by contractors
       contracting technically conforms to the Library’s               is, at best, weak.        We
       procurement policies, including its policy to follow the        issued many reports over
       Federal Acquisition Regulation (FAR). To accomplish             the last several years that
       its evaluation, Suntiva reviewed official Library files for a   call attention to significant
       sample of fiscal year 2007 contracting actions.                 management issues affecting
                                                                       the Contracts Office and
       Suntiva’s report stated that the Chief of the Contracts
                                                                       believe     that    Suntiva’s
       Office has issued some strong, well-stated policies and
                                                                       findings confirm those
       procedures to help staff conform to the Library’s contracting
                                                                       issues.
       requirements. However, in addition to the long-standing
       management issues our first report identified, Suntiva          In     general,     Suntiva’s
       also found many important problems in the Library’s             recommendations included
       contracting activities that collectively show widespread and    developing a training curriculum addressing the roles of all
       serious lack of compliance with applicable requirements.        Library procurement participants, providing acquisition
       Through its evaluation, Suntiva identified:                     training to all Library staff involved in procurement,
                                                                       enhancing management oversight, improving the condition
       •	 widespread lack of compliance with Library contracting
                                                                       of the Library’s official contract files, and examining the
       requirements, including, among others, inadequate
                                                                       technical capability of the Momentum contract-writing
       justifications for “fair and reasonable” prices and minimal,
                                                                       system, among other actions.
       if any, acquisition planning;
                                                                                          Above: Closeup of a portion of Antonio de León y Gama’s,
                                                                                          Descripción Histórica y Cronológica de la dos piedras en la
                                                                                          Plaza Principal de México, 1792 (Kislak Collection)
2   Semiannual Report to the Congress
Management concurred with all of the recommendations           U.S. General Services Administration (GSA) guidelines.
and identified several actions that were being taken to        As recommended by GSA, the survey included measuring
improve the contracting function. In addition, an acting       the space required to accommodate the materials on hand
director of Contracts and Grants has been named until the      and adding space to accommodate estimated surges and
position can be permanently filled.                            future growth for various material categories. However,
                                                               the survey’s result is inflated because the baseline estimate
Integrated Support Services                                    includes unused and outdated material that was stored in the
Facility Services
                                                               warehouse when the survey was performed. Additionally,
Review of the Requirements Analysis for the                    we believe that the survey’s estimates for growth and surge
Proposed Fort Meade Logistics Center
                                                               allowances, which are factored into the survey’s result, are
                            Review Report                      questionable based on other information we collected.
                            No. 2006-SP-802
                            March 2008
                                                               We also determined that the strategy the Library developed
                                                               to address its future warehousing needs lacks adequate
                            In 2004, the Library proposed
                                                               circumspection. Basic assumptions about what types of
                            building a new Logistics
                                                               materials the Library should be storing and how to store
                            Center at Fort Meade to fulfill
                                                               these materials should be evaluated in developing an
                            its storage requirements, and
                                                               effective warehousing solution. In our view, the Library
                            in 2006, the Facility Services
                                                               could dynamically adjust the storage space it uses by
                            component of the Library’s
                                                               building or leasing a relatively small storage facility, then
                            Integrated Support Services
                                                               leasing temporary facilities on an as-needed basis. This
                            surveyed the Library’s existing
                                                               strategy could potentially save the Library $6 to $8 million
                            and future warehouse space
                                                               over ten years.
                            needs. More recently, due
                            largely to prevailing budget       We recommended that Facility Services:
                            constraints, the Library began     •	 consider implementing a reimbursement-based
                            considering leasing storage        procedure for warehouse storage (e.g., charge service units
                            space as an alternative to         a fixed-dollar amount per cubic foot of space) to encourage
                            constructing a new building.       service units to manage their warehouse spaces more
                                                               efficiently;
                              We recently evaluated the
                                                               •	 recalculate the growth factor starting from a “clean”
                              results of Facility Services’
                                                               baseline; and
                              2006 survey and assessed
                              the strategy that the Library    •	 reevaluate the surge allowances for certain survey
                              has developed to address         items.
                              its     future    warehousing    In a broad strategic sense, we also recommended that
                              requirements. Our objectives     the Library critically analyze its strategy for its future
were to determine whether Facility Services followed sound     warehousing needs to identify the best storage strategy for
methodology in performing its survey and whether the           various types of materials.
Library’s strategy for addressing its future warehouse needs
is efficient and effective.                                    Management generally agreed with our findings and
                                                               recommendations.
We determined that the methodology Facility Services
used in its 2006 survey was sound and consistent with


                                                                                      Semiannual Report to the Congress 3
       Office of the Librarian                                           identify errors or data that is being inappropriately used.
       Development Office
                                                                         Management generally agreed with our findings and
       Information Technology Review of
                                                                         recommendations.
       the Raiser’s Edge Software Program
       Review Report No. 2006-IT-302
       December 2007
                                                                         Office of Strategic Initiatives
                                                                         Information Technology Services

       The Library’s Development Office seeks support from               The Library Should Explore Alternative
       individuals, corporations, and foundations that wish to           Long-Distance Telephone Service Providers
       play a key role in sharing, cultivating, and celebrating          Audit Report No. 2007-CA-101
       knowledge and creativity. Library fundraising is focused          March 2008
       on support for special acquisitions, preservation of Library
                                                                         For about the past three years, the Library of Congress
       collections, cultural and educational outreach programs,
                                                                         has obtained most of its long-distance telephone services
       and various other projects and activities. Private donations
                                                                         through a contract that was awarded by the Architect of the
       to the Library have totaled approximately $307 million
                                                                         Capitol (AOC). The Library is one of six legislative branch
       since the Librarian established the Development Office in
                                                                         agencies that purchases long-distance services through the
       1987. The office uses Raiser’s Edge, a commercial software
                                                                         AOC contract, and, by obtaining its telephone services this
       product, as a tool for managing fundraising activities,
                                                                         way, the Library believes that it minimizes administrative
       including tracking receipts and managing special event
                                                                         costs and takes advantage of the contract’s economies of
       information.
                                                                         scale.
       Our report provided the results of our assessment of the
                                                                         We recently completed an audit of the Library’s arrangement
       application controls the Library uses in the operation of
                                                                         with the AOC for obtaining long-distance telephone
       Raiser’s Edge. We sought to determine whether the controls
                                                                         services. Our objectives were to determine whether the
       applied are commensurate with the level of protection
                                                                         AOC contract provides the Library the best value for its
       required for the system’s information and whether the
                                                                         long-distance telephone services and whether the Library
       system is operated according to the Library’s Information
                                                                         had satisfactory controls for reviewing and approving
       Technology (IT) Security Policy, as stated in Library of
                                                                         payments for the long-distance telephone bills it received.
       Congress Regulation (LCR) 1620, and applicable IT
       Security Directives.                                              We concluded that the AOC contract may not provide
                                                                         the Library the best value for its long-distance telephone
       We concluded that the level of controls applied in the
                                                                         services because the rates included in the AOC contract
       operation of Raiser’s Edge appropriately corresponds to the
                                                                         for international calls are generally higher than the
       level of protection required for the data the system processes.
                                                                         international call rates that are available from alternative
       However, we identified actions that management should
                                                                         service providers. For example, the rate per minute for a
       take to enhance the protection of system information.
                                                                         call to Belgium through the AOC contract is about three
       Specifically, we recommended that:
                                                                         times the rate that is available through the General Services
       •	 the process of establishing user passwords be automated        Administration’s service provider.
       in conformance with the Library’s Password Directive and
                                                                         Moreover, we determined that the Library had effectively
       not require the involvement of a second party;
                                                                         no controls in place for reviewing and approving payments
       •	 the Raiser’s Edge system undergo the Certification and         for the long-distance telephone bills. Specifically, formal,
       Accreditation evaluation required by LCR 1620 as soon as          written procedures were not in place to guide and control
       possible; and                                                     the bill review and payment approval process and the
       •	 system managers regularly review Raiser’s Edge’s data to       automated system the Library uses to account for telephone




4   Semiannual Report to the Congress
calls does not effectively reconcile the number of calls made    the most part, efficiently processing the Library’s materials
with the number of calls for which the Library was billed.       through customs and arranging inland freight to the
                                                                 Library’s headquarters. However, the broker was unable to
We recommended that the Library:
                                                                 process all shipments efficiently and, in some cases, unable
•	 compare the cost of obtaining long-distance telephone         to retrieve Library shipments from customs mainly because
service through the AOC contract with the cost of obtaining      shippers did not provide sufficient detail in addressing those
service from alternative providers and switch if doing so        shipments. As a result, the Library unnecessarily incurred
would provide the best value to the Library; and                 storage charges for shipments that its customs broker was
•	 develop   and implement formal, written procedures            unable to easily retrieve from customs, and other shipments
to guide and control the long-distance bill review and           intended for the Library may have gone unclaimed.
payment approval process and explore acquiring a new
                                                                 We also found that the Library was not effectively reviewing
automated system to provide more effective accounting for
                                                                 the invoices it received from its customs broker. Invoices
the Library’s telephone calls.
                                                                 that we reviewed included unnecessary and questionable
Management generally agreed with our recommendations             charges, generally lacked supporting documentation, and
to assess the cost effectiveness of using the AOC contract for   reflected no indication that the Library had verified the
long-distance telephone service and to implement formal          receipt of corresponding shipments.
procedures for the long-distance bill review and payment
                                                                 We also noted that the Library had used the same customs
approval process. However, management disagreed with
                                                                 broker for 18 years. Although the broker had provided
our conclusion that its automated system that accounts for
                                                                 efficient service during that time, it is good business practice
telephone calls is ineffective.
                                                                 to periodically review the services and costs available from
                                                                 other customs brokers to ensure the Library continues to
Integrated Support Services
Office Systems Services                                          receive the best value for its customs-related requirements.

Survey of Office Systems Services’                               We recommended that the Library:
Handling of Imported Materials
                                                                 •	 promptly draft and issue procedures specifying how
Survey Report No. 2008-AT-901                                    shipments intended for the Library should be addressed,
February 2008
                                                                 •	 closely scrutinize the invoices it receives from its
Goods that are imported into the United States are required      customs broker, and
to be “entered” (i.e., declared) to the Department of            •	 seek competition for its customs-related requirements.
Homeland Security, U.S. Customs and Border Protection            Management generally agreed with our findings and
(CBP). The Library uses a “certified CBP broker” to handle       recommendations and has drafted the procedures we
the applicable complex customs processing requirements           recommended.
for its air and ocean freight shipments.

We reviewed the Library’s customs clearance process for the
materials it receives from foreign countries. Our objectives
were to determine whether all foreign shipments intended
for the Library were efficiently retrieved at a U.S. port of
entry and whether the Library effectively reviewed the
invoices it received from its customs broker to ensure the
broker’s charges were proper and correct.

We found that the Library and its customs broker were, for



                                                                                          Semiannual Report to the Congress 5
       Library of Congress                                            report on the collections of heritage assets, and an
       Fiscal Year 2007 Financial Statements                          assertion about the effectiveness of corresponding internal
       Audit Report No. 2007-FN-102                                   controls. Management reported that it cannot provide
       February 2008                                                  reasonable assurance that the internal control structure
                                                                      over safeguarding collections assets against unauthorized
       Kearney & Company audited the Library’s consolidated           acquisition, use, or disposition was completely effective,
       Balance Sheets as of September 30, 2007 and 2006;              and cannot assert that collections inventory controls were
       the related consolidated Statements of Net Cost, and           fully implemented during the in-processing and in-storage
       Changes in Net Position; and the combined Statements of        life cycles. The auditors evaluated internal controls over
       Budgetary Resources for the fiscal years then ended. In        the collections assets and concluded that management’s
       the auditors’ opinion, the financial statements, including     assertion was fairly stated.
       the accompanying notes, present fairly in all material
       respects, the financial position of the Library and its net    James Madison Council
       costs, changes in net position, and budgetary resources in     Fiscal Year 2007 Financial Statements
       conformity with accounting principles generally accepted
                                                                      Audit Report No. 2007-FN-102
       in the United States.                                          February 2008

       The auditors also performed tests of compliance with laws
                                                                      The James Madison Council is an advisory body of public-
       and regulations; considered internal controls over financial
                                                                      spirited individuals who contribute ideas, expertise, and
       reporting and compliance; and in a separate report,
                                                                      financial support to promote the Library’s collections and
       examined management’s assertion about the effectiveness
                                                                      programs. The James Madison Council Fund (Fund) was
       of internal controls over safeguarding collections assets.
                                                                      established in 1989 to encourage contributions not only
       Internal Controls Over Financial Reporting—The                 for current programs, but for permanent endowments that
       auditors considered such internal controls in planning and     will impact the collections and programs in the future.
       performing the audit and as a result identified a material
                                                                      Under contract with the Office of the Inspector General,
       weakness. In their report, they noted control deficiencies
                                                                      the accounting firm of Kearney & Company audited the
       regarding accountability procedures, segregation of duties,
                                                                      Fund’s fiscal year 2007 financial statements and issued its
       classification of expenditures, disposal management, and
                                                                      Independent Auditor’s Report. The audit included the
       cost recovery for Library property and equipment.
                                                                      Fund’s statement of financial position as of September 30,
       Compliance and Other Matters—Library management                2007, and the related statements of activities and cash flows.
       is responsible for complying with applicable laws and          The auditors concluded that the financial statements were
       regulations. The auditors are responsible for testing          presented fairly in all material respects, and in conformity
       compliance with selected provisions of laws and regulations    with generally accepted accounting principles. The auditors
       that have a direct and material effect on the financial        found no material weaknesses in internal controls over
       statements, as well as certain other laws and regulations      financial reporting, nor any instances of noncompliance
       specified in Office of Management and Budget guidance.         with laws and regulations that are required to be reported
       The auditors found no instances of noncompliance that          under GAGAS.
       are required to be reported under Generally Accepted
       Government Auditing Standards (GAGAS).                         For both the Library of Congress and Fund financial
                                                                      statements audits, we performed the following steps to
       Management’s Assertion About the Effectiveness of Internal     ensure the quality of Kearney’s work:
       Controls Over Safeguarding Collections Assets—In its
       financial statements, the Library includes a stewardship       •	 reviewed the auditor’s approach and planning of the
                                                                      audits;




6   Semiannual Report to the Congress
•	 reviewed significant working papers;                        •	 expanding the beta test; and
•	 evaluated the qualifications and independence of the        •	 collecting more detail in certain areas reported as
auditors;                                                      problems by users.
•	 monitored the progress of the audits at key points;
                                                               We believe that our recommendations will result in an
•	 coordinated meetings with Library management to             improved beta testing process; this will provide Copyright
discuss progress, findings, and recommendations;               management with increased assurance that eCO will
•	 performed other procedures we deemed necessary;             function as intended when it is deployed.
and
                                                               At this time, we believe that no further action is required
•	 reviewed and accepted Kearney’s audit report.               on our part until full beta testing results become available.
                                                               We will continue to monitor the process and report again
Copyright Office                                               at the conclusion of beta testing.
Copyright Reengineering Project
Special Project No. 2001-IT-304
March 2008


In September 2000, the Copyright Office embarked on a
multiyear business process reengineering initiative. This
initiative was intended to improve the efficiency and
effectiveness of its public service.


The backbone of the new business process is a Web-
based system that will enable most users to enter and
maintain copyright applications online, thus saving time
and resources. The new system, dubbed “eCO,” has been
built, and several of its components are now in the most
critical phase of the system’s development life cycle: beta
testing. This phase gives both users and Copyright staff an
opportunity to use the system and work out bugs before
system development ends. The next step will be to turn the
system on for all users.


We have been monitoring the reengineering process since
inception. We have issued memoranda from time to
time detailing current progress and our assessment of the
process. During this critical phase, we have intensified our
review.

As a result of our efforts, we were able to make
recommendations for improvements to the beta testing
process, such as:

•	 correlating the help desk logs and functionalities
currently being tested;




                                                                                       Semiannual Report to the Congress 7
8   Semiannual Report to the Congress
  Investigations

   During the reporting period we opened 63 investigations and closed 28. We referred two cases to the U.S. Attorney’s
   Office; both were accepted. We forwarded 11 cases to Library management for administrative action. Case and Hotline
   activity are detailed below:

    Table 1: 	           Investigation Case Activity

                                                    Criminal/Civil                  Administrative             Total
    From Prior Reporting Period                              6                           24                      30
    Opened                                                   3                           60                      63
    Closed                                                   -                           28                      28


    End of Period                                            9                           56                      65



    Table 2: 	           Hotline Activity

                                                                                               Count
    Allegations received                                                                         4
    Referred to management for action                                                            1
    Opened as investigations                                                                     3
    Closed with no action                                                                        -




Opposite: Arnoldus Montanus, De nieuwe en onbekende weereld, 1671 (Kislak Collection)



                                                                                                 Semiannual Report to the Congress 9
       Significant Criminal and                                       of impropriety when a panel member has a personal
       Administrative Investigations                                  relationship with an applicant.

       Check Fraud
                                                                      In an ethics allegation involving a small gift to a senior
                                                                      Library official, we determined that the gift was well-
       The manager of the Library’s Catalog Distribution Service
                                                                      intentioned and had minimal value. We recommended
       (CDS) reported to the OIG that a forged $1,725 check
                                                                      that the employee be counseled about Library regulations
       from Ghana for five sets of the Library’s Subject Heading
                                                                      concerning gifts and that the official consult with the
       Catalog was returned by the bank. CDS staff intercepted
                                                                      General Counsel before accepting such gifts.
       the shipment in Paris and directed the shipper to recycle
       the catalogs because it was more cost-effective than
                                                                      Misuse of Library Computers/Networks
       returning them.
                                                                      With management’s support, we began a long-term
       We advised CDS to hold future shipments until checks
                                                                      proactive initiative during the period designed to detect
       cleared and to alert the OIG when they receive fraudulent
                                                                      inappropriate or illegal use of Library computers and
       checks. The Library subsequently averted potential losses
                                                                      networks with an emphasis on pornography. Pornographic
       approximating $23,000 by holding shipments paid for by
                                                                      Web sites are often associated with malicious files, code,
       check.
                                                                      and spy-ware, which pose a substantial security threat to
                                                                      the Library’s information technology infrastructure. Also,
       Anonymous Allegations of Misconduct
                                                                      significant time spent by Library employees accessing
       We received anonymous allegations primarily regarding          these Web sites results in lost productivity.
       the Office of Strategic Initiatives (OSI) about travel and
       contract irregularities, waste, and ethics issues. Most        We found that two employees were using Library
       of the allegations were not substantiated, especially          computers to engage in alleged criminal activity related to
       those of a personal nature. However, we made some              child pornography. After several months of investigation,
       recommendations for improved controls and oversight.           we referred these cases to the U.S. Attorney’s Office for
                                                                      prosecution. We will report on the outcome of these
       OSI did not consistently follow Library policy due to a lack
                                                                      cases in the next semiannual report.
       of knowledge of the travel regulations and administrative
       staff turnover. We made recommendations for additional
                                                                      Our investigation also found that five Library employees
       training and supervisory oversight.
                                                                      and two contractors were accessing pornographic Web
                                                                      sites. One administrative investigation involved a GS-
       We found no apparent violations of laws, regulations, or
                                                                      15 Library employee who averaged almost four hours a
       policy regarding most of the contract-related allegations.
                                                                      day accessing pornographic Web sites, files, and digital
       In one case, however, we recommended that care should
                                                                      images over our sample 30-day period. In this case, the
       be exercised in the execution of contracts to ensure that
                                                                      loss of productivity was approximately $6,200 in salary
       they are relevant to the Library’s long-term goals.
                                                                      for the sample period. The employee was suspended for
                                                                      20 days. The two contractors were removed from the
       One allegation involved a manager hiring someone with
                                                                      Library contract and terminated by the contractor.
       whom the manager had had a personal relationship. We
       found that the manager was not the selecting official,
                                                                      The other four administrative investigations also involved
       and therefore the transaction did not violate the Library’s
                                                                      Library employees spending significant time accessing
       Merit Selection Plan. However, we recommended that the
                                                                      pornographic Web sites. Each employee was also
       Director, Human Resources Services, provide guidance to
                                                                      suspended for 20 days without pay.
       selection panel members about the risk of the appearance



10 Semiannual Report to the Congress
Inappropriate E-mail

A library employee complained that she was the subject
of racially offensive remarks in e-mail messages between a
Library employee and another person. Our investigation
confirmed that a Library employee used a Library
computer to exchange racially offensive remarks about
the complainant. We referred the matter to Library
management for administrative action. Management
suspended the employee for one day.


Missing Collection Material Surfaces

A rare book collector reported discovering a Library
of Congress Copyright Office stamp inside a book he
purchased for $29,000. He promptly returned the book
to the seller, a rare book dealer, and received a refund. The
Library’s Rare Book Division established that the book
had been part of the Library’s collection and there is no
evidence that it was discarded. In 1994, the Library’s
Prints and Photographs Division discovered the book
title was missing from the collections and paid $20,000
for a replacement copy. Negotiations are underway with
the dealer over the book’s return to the Library. There is
insufficient information available to identify a suspect or
determine when the book was stolen.


Assistance to Police Investigation

A New Hampshire police officer contacted the OIG
to request specific Playboy magazine editions from the
Library’s collection for an investigation of a suspect charged
with raping three seven year-old children in 1987. At the
time, the suspect was using Playboy magazines to groom
the victims. Because these assaults were reported 20 years
later, the officer needed specific Playboy magazines as
corroborating evidence. According to the officer, two of the
victims were able to describe in detail a specific photograph
from a Playboy magazine that they were shown before they
were assaulted. We enlisted the aid of Library management
and facilitated delivery of the requested magazine editions.
We commend the Deputy Associate Librarian for Library
Services, who authorized the release of the collection
material.




                                                                 Semiannual Report to the Congress 11
       Follow-up on Investigative Issues
       From Prior Semiannual Reports

       Computer Security Banner                                         Authorship/Employee Ethics
       and New Library Regulation

       We previously reported reviewing the Library’s computer          We previously reported our review of the circumstances
       security banner and recommending revisions to broaden its        surrounding a presentation given by a current Library
       application to better meet the needs of both management          employee at a Library-sponsored function at which copies of
       and law enforcement. We also recommended that the                his books were sold. We found that the employee’s actions
       Library develop and implement a new regulation dedicated         gave the appearance of violating the ethical principle of
       to providing guidance on appropriate use of the internet         using public office for private gain. The employee conceded
       to staff. We are pleased to report that the Library’s Chief      that he used government time and resources for his personal
       Operating Officer has adopted most of our recommendations        work and found it difficult to distinguish between the
       and is implementing a new Library regulation specifically on     two. The Office of General Counsel has counseled the
       the subject. The new banner is being implemented at the          employee concerning the inappropriate use of his official
       same time as Library of Congress Regulation 1621, Staff Use      title. Disclaimers have been added to website listings for
       of the Internet. We are also discussing with management the      the presentation indicating that the opinions expressed by
       feasibility of acquiring technology to block access to certain   the author are not necessarily those of the Library. This
       prohibited Web content.                                          matter is closed

       Theft from Loading Dock


       We previously reported that a Library employee had
       removed and attempted to sell 2,000 pounds of coaxial
       cable from a Library loading dock. In addition to a court-
       approved agreement requiring community service and
       probation, during this reporting period the Library denied
       the employee’s appeal and terminated his employment.


       Travel Card Fraud


       In the last semiannual period, we reported an investigation
       into unauthorized charges on four credit cards issued to
       Library employees. We determined that the common
       points of compromise and fraudulent purchases were in
       New York, where the employees had attended an official
       function. We also became aware that the New York City
       Police Department (NYPD) identified a suspect who was
       selling the stolen credit card numbers. We referred the case
       to the U.S. Attorney’s office, who then deferred the matter
       to New York City prosecutors and the NYPD. During this
       reporting period the NYPD closed its case due to insufficient
       evidence.



                                                                               Opposite: A selection of volumes from Thomas Jefferson’s Library




12 Semiannual Report to the Congress
Semiannual Report to the Congress 13
Unimplemented Recommendations

Table 3A: 	       Significant Recommendations from Previous Semiannual
                  Reports for Which Corrective Action Has Not Been Completed
                           Report No. and
        Subject                                    Office         Rec. No.   Summary and Status of Recommendation
                             Issue Date
Office of the Chief Financial Officer (OCFO)
                                                                             Implement an automated tracking system—A pilot system
Management                   2004-PA-106          Strategic
                                                                     II      is in the testing stage for tracking internal control issues
Control Program              March 2006        Planning Office
                                                                             and the planned implementation date is September 2008.

                                                                             Develop a formal plan for implementing Performance-
                                                   Strategic                 based Budgeting—The Library has developed building
Performance-based           2004-FN-501
                                               Planning Office/      I       blocks leading to a performance-based budget without a
Budgeting                  September 2006
                                                Budget Office                formal plan of action. OIG agreed with this approach and
                                                                             will conduct follow-up reviews.

                                                                             Coordinate more closely the Workforce Transformation
                                                                             and Workforce Performance Efforts—Library management
Performance-based                                  Strategic                 is coordinating these efforts under the direction of HRS.
                            2004-FN-501
Budgeting                                      Planning Office/     III      Recently, AFSME 2477 began to transition its membership
                           September 2006
                                                Budget Office                to the Library’s performance management system. OIG
                                                                             will conduct follow-up reviews to monitor the Library’s
                                                                             progress in transitioning remaining staff.	
Integrated Support Services (ISS)

Facilities Design &
                                                                             Collect the information needed to effectively forecast the
Construction Faces          2006-PA-107          Integrated
                                                                    I.1      staffing resources required by FD&C—ISS expects to fully
Challenges in Providing    September 2007      Support Services
                                                                             implement the recommendation by May 2008.
Service


                                                                             Place a priority on completing the Project Delivery Manual.
Facilities Design &
                                                                             This may entail fitting this task in around the growing day-
Construction Faces          2006-PA-107          Integrated
                                                                    II.1     to-day needs of advising and supervising staff—ISS expects
Challenges in Providing    September 2007      Support Services
                                                                             to fully implement the recommendation by September
Service
                                                                             2008.

Facilities Design &
                                                                             Implement postoccupancy evaluations to assess the outcome
Construction Faces          2006-PA-107          Integrated
                                                                    II.5     of its design efforts—ISS expects to fully implement the
Challenges in Providing    September 2007      Support Services
                                                                             recommendation by September 2008.
Service

Facilities Design &
                                                                             Establish goals for the completion of FAST service requests,
Construction Faces          2006-PA-107          Integrated
                                                                   V. 1.     by type of request—ISS expects to fully implement the
Challenges in Providing    September 2007      Support Services
                                                                             recommendation by September 2008.
Service




14 Semiannual Report to the Congress
Table 3A: 	       Significant Recommendations from Previous Semiannual
                  Reports for Which Corrective Action Has Not Been Completed
                          Report No. and
        Subject                                Office         Rec. No.   Summary and Status of Recommendation
                            Issue Date

Facilities Design &                                                      Create a “triage” system to reorder and allocate resources
Construction Faces         2006-PA-107       Integrated                  based on current workload and resource balance—ISS
                                                               V. 2.
Challenges in Providing   September 2007   Support Services              expects to fullly implement the recommendation by
Service                                                                  2010.

Facilities Design &
                                                                         Establish timeframes for the completion of various project
Construction Faces         2006-PA-107       Integrated
                                                               V. 3.     types—ISS expects to fully implement the recommendation
Challenges in Providing   September 2007   Support Services
                                                                         by September 2008.
Service

Facilities Design &                                                      Increase the monitoring of FAST requests and investigate
Construction Faces         2006-PA-107       Integrated                  any request outstanding for more than the planned time—
                                                               V. 4.
Challenges in Providing   September 2007   Support Services              ISS expects to fully implement the recommendation by
Service                                                                  September 2008.


Facilities Design &                                                      Stress to the service providers the importance of inputting
Construction Faces         2006-PA-107       Integrated                  the completion date as soon as the job is completed—
                                                                VI
Challenges in Providing   September 2007   Support Services              ISS expects to fully implement the recommendation by
Service                                                                  September 2008.

Library Services (LS)
                                                                         Develop a decision model for determining reading room
Utilization of             2003-PA-104                                   space requirements—Library Services is developing a
                                           Library Services     II.1
Reading Rooms              March 2004                                    decision model and projects completion of the model in
                                                                         May 2008.
                                                                         Use the decision model to make decisions about reading
                                                                         room, office space, and storage requirements—Library
Utilization of             2003-PA-104
                                           Library Services     II.2     Services projects that by July 2008, it will make decisions
Reading Rooms              March 2004
                                                                         about reading room, office space, and storage requirements,
                                                                         assuming the decision modeal is completed on schedule.
                                                                         Review the collections policy statements at least once every
                                                                         five years—The Collection Policy Committee is reviewing
Collections                2006-PA-104
                                           Library Services     II.3     policy statements for certain areas and plans to implement
Acquisitions Strategy     December 2006
                                                                         a procedure for reviewing all of them by the end of fiscal
                                                                         year 2008.
                                                                         Develop and communicate to recommending officers
Collections                2006-PA-104                                   criteria for recommending activities—The Strategic
                                           Library Services    III.1
Acquisitions Strategy     December 2006                                  Working Group is looking at how to develop and apply
                                                                         consistent standards.

                                                                         Consider creating a full-time Digital Subscription
Collections                2006-PA-104
                                           Library Services     IV.2     Manager—This recommendation is held pending action
Acquisitions Strategy     December 2006
                                                                         on the report from the Strategic Working Group.




                                                                                        Semiannual Report to the Congress 15
Unimplemented Recommendations

Table 3A: 	        Significant Recommendations from Previous Semiannual
                   Reports for Which Corrective Action Has Not Been Completed
                             Report No. and
        Subject                                  Office    Rec. No.   Summary and Status of Recommendation
                               Issue Date
Office of Security and Emergency Preparedness (OSEP)
                                                                      Develop or obtain a threat/risk assessment—OSEP is
Emergency                     2005-PA-104                             determining the Library’s vulnerabilities in coordination
                                                 OSEP        III
Preparedness Program          March 2006                              with all Library units and will coordinate the risk
                                                                      assessment with the Capitol Police.
Office of Strategic Initiatives (OSI)

                                                                      Establish more effective procedures to monitor costs—OSI
Financial Management          2006-PA-105
                                                NDIIPP        I       and the Grants Office currently disagree over responsibility
Policies of the NDIIPP        March 2007
                                                                      for this process. We are following up with both parties.

                                                                      Improve oversight of NDIIPP partners’ matching
Financial Management          2006-PA-105                             requirements—OSI and the Grants Office currently
                                                NDIIPP        II
Policies of the NDIIPP        March 2007                              disagree over responsibility for this process. We are
                                                                      following up with both parties.

                                                                      Formalize and fully implement NDIIPP draft procedures—
Financial Management          2006-PA-105
                                                NDIIPP       III      We have reviewed the draft procedures but they have not
Policies of the NDIIPP        March 2007
                                                                      yet been formally implemented.

Lead Institutions Need
                                                                      OSI needs to revise draft monitoring procedures for
to Improve NDIIPP             2007-FN-101
                                                NDIIPP        II      payment approvals to comply with OMB cost circulars—
Monitoring                     Sept. 2007
                                                                      Draft procedures have been revised, but not implemented.

Human Resources Services (HRS)

                                                Human                 Establish a supervisor’s manual—HRS agreed with the
Human Resources               2005-AT-902
                                               Resources     II.c     recommendation and will begin this effort now that the
Policies                      March 2007
                                                Services              employee manual has been issued.


                                                Human                 Establish an employee manual—The manual was issued
Human Resources               2005-AT-902
                                               Resources     II.d     in April 2008, shortly after the close of our semiannual
Policies                      March 2007
                                                Services              period.




16 Semiannual Report to the Congress
Table 3A: 	         Significant Recommendations from Previous Semiannual
                    Reports for Which Corrective Action Has Not Been Completed
                          Report No. and
       Subject                               Office     Rec. No.          Summary and Status of Recommendation
                            Issue Date
Office of the Librarian (LIBN)
                                                                   Revise Library of Congress Regulation (LCR) 2020-7 to
                                                                   allow complainants to use dispute resolution during the
                                            Office of
Dispute                     2002-PA-104                            formal EEO complaint process—The Library is in the
                                            Workforce     III
Resolution Center          September 2003                          process of reorganizing the Dispute Resolution Center
                                            Diversity
                                                                   and the Office of Workforce Diversity. The revised LCR
                                                                   is on hold pending final changes.

                                                                   Evaluate and revise LCR 2010-3.1—The Library is in the
Equal Employment                            Office of
                           2001-PA-104                             process of reorganizing the Dispute Resolution Center
Opportunity                                 Workforce      I
                           February 2003                           and the Office of Workforce Diversity. The revised LCR
Complaints Office                           Diversity
                                                                   is on hold pending final changes.


Office of Contracts-                                               Fund three additional contract specialist FTEs—Funding
                            2007-PA-102     Office of
Service Remains Less                                       I       is available but the positions are vacant awaiting recruiting
                           September 2007   Contracts
Than satisfactory                                                  results.


                                                                   Assess workforce needs annually and update hiring
Office of Contracts-
                            2007-PA-102     Office of              strategies—Staff training measurements have been
Service Remains Less                                       II
                           September 2007   Contracts              established; workflow mapping and analysis is under
Than satisfactory
                                                                   consideration to improve operational efficiency.



Office of Contracts-                                               Establish and issue the procurement policy and procedures
                            2007-PA-102     Office of
Service Remains Less                                      III      maual referred to in LCR 2110—Manual is scheduled for
                           September 2007   Contracts
Than satisfactory                                                  completion in Spring 2008 with a phased roll-out.

                                                                   Continue coordinating with OCFO to identify
                                                                   opportunities for modifying/improving Momentum—
Office of Contracts-
                            2007-PA-102     Office of              The Contracts Office/OCFO are assessing Momentum’s
Service Remains Less                                      IV
                           September 2007   Contracts              acquisition module and will work with the vendor
Than satisfactory
                                                                   to identify and schedule implementation of system
                                                                   improvements.

Office of Contracts-                                               Establish and issue policy that officially implements
                            2007-PA-102     Office of
Service Remains Less                                       V       details of OMB’s acquisition training policy—A formal
                           September 2007   Contracts
Than satisfactory                                                  policy statement is being drafted.


Office of Contracts-
                                                                   Recruit and select a Director of the Office of Contracts
Service Remains Less        2007-PA-102     Office of
                                                          VI       and Grants Management—This position was filled on a
Than satisfactory          September 2007   Contracts
                                                                   temporary basis as of April 2008.




                                                                                  Semiannual Report to the Congress 17
Implemented Recommendations
 Table 3B: 	        Significant Recommendations from Previous Semiannual Reports
                    For Which Corrective Action Was Completed During This Period

         Subject              Report No. and       Office         Rec. No.         Summary of Recommendations and Actions

 Human Resources Services (HRS)
                                                                             The Library should make its personnel policies more
                                                   Human
 Human Resources               2005-AT-902                                   accessible—HRS added a subject index to its Web page
                                                  Resources         I.a
 Policies                      March 2007                                    that permits staff to browse and locate specific subject
                                                   Services
                                                                             matter related to Human Resources Services.
                                                   Human                     The Library should update its personnel policies—HRS and
 Human Resources               2005-AT-902
                                                  Resources         I.b      the Office of General Counsel have updated the policies as
 Policies                      March 2007
                                                   Services                  recommended.
                                                   Human                     The Library should adopt a table of penalties—HRS
 Human Resources               2005-AT-902
                                                  Resources         II.c     revised LCR 2023-3 to include provisions similar to a table
 Policies                      March 2007
                                                   Services                  of penalties.
 Office of Strategic Initiatives (OSI)

 Lead Institutions Need
                               2007-FN-101                                   Direct certain awardee insitutions to institute procedures
 to Improve NDIIPP                                NDIIPP             I
                              September 2007                                 for monitoring sub-awardee costs—Implemented.
 Monitoring

 Integrated Support Services (ISS)
                                                                             Explore procuring technical expertise using GSA’s Indefinite
 Facilities Design &
                                                                             Delivery/Indefinite Quantity (IDIQ) contracts—FD&C
 Construction Faces            2006-PA-107       Integrated
                                                                    I.2      has established IDIQ contracts to support its architectural
 Challenges in Providing      September 2007   Support Services
                                                                             and engineering design, its Computer Aided Design, and
 Service
                                                                             its Computer Aided Facility Management.
                                                                             Develop a checklist with the customer at project onset
 Facilities Design &
                                                                             of the project’s general parameters and requirements,
 Construction Faces            2006-PA-107       Integrated
                                                                    II.2     functional and technical requirements, design provisions,
 Challenges in Providing      September 2007   Support Services
                                                                             and design objectives—FD&C developed pre-project,
 Service
                                                                             project coordinator, and project close-out checklists.
                                                                             Consider taking customers to vendors’ showrooms to better
                                                                             visualize the design concepts—ISS’s alternative solution
 Facilities Design &
                                                                             is to allow its customer to visualize the design concepts
 Construction Faces            2006-PA-107       Integrated
                                                                    II.3     through isometrics and product cut sheets, as well as on-site
 Challenges in Providing      September 2007   Support Services
                                                                             visits to model workstations congruent with best business
 Service
                                                                             practices that FD&C has installed throughout the Library.
                                                                             We believe this is an acceptable alternative solution.
                                                                             Consider using more moveable furniture—ISS considered
 Facilities Design &
                                                                             our recommendation and determined it was not cost
 Construction Faces            2006-PA-107       Integrated
                                                                    II.4     effective given the investment the Library has already made
 Challenges in Providing      September 2007   Support Services
                                                                             in ergonomic modular furniture. We agree with ISS’s
 Service
                                                                             evaluation and consider this recommendation closed.
                                                                             FD&C should assign a liaison to act as a channel between
 Facilities Design &
                                                                             it and the other offices to avoid multiple communication
 Construction Faces            2006-PA-107       Integrated
                                                                   III.3     sources and conflicting instructions—ISS assigned a
 Challenges in Providing      September 2007   Support Services
                                                                             FD&C manager to meet weekly with the Contracts Office
 Service
                                                                             and the Logistics Section.


18 Semiannual Report to the Congress
Table 3B: 	       Significant Recommendations from Previous Semiannual Reports
                  For Which Corrective Action Was Completed During This Period

        Subject           Report No. and           Office         Rec. No.         Summary of Recommendations and Actions

Facilities Design &                                                          Reinforce Facility Services centralized role in space
Construction Faces         2006-PA-107           Integrated                  planning and design—The Library’s Chief Operating
                                                                    IV
Challenges in Providing   September 2007       Support Services              Officer is working closely with Facility Services to ensure
Service                                                                      its centralized oversight role in space planning and design.
                                                                             Involve customers further in the process—FD&C is now
Facilities Design &
                                                                             meeting with new customers early in the design phase to
Construction Faces         2006-PA-107           Integrated
                                                                    V.5      ensure proper introduction of its process. FD&C is also
Challenges in Providing   September 2007       Support Services
                                                                             taking customers to on-site model offices to ensure a better
Service
                                                                             visualization of the finished product.
Library Services (LS)
                                                                             Focus Library resources more on materials not widely held
Collections                2006-PA-104
                                               Library Services     I.1      by other libraries—Recommendation closed based on
Acquisitions Strategy     December 2006
                                                                             decision by the Librarian not to reduce collection levels.	
                                                                             Explore developing collaborative partnerships with
Collections                2006-PA-104                                       other institutions to act as “trusted” repositories—
                                               Library Services     I.2
Acquisitions Strategy     December 2006                                      Recommendation closed based on decision by the Librarian
                                                                             not to reduce collection levels.
                                                                             Reevaluate the Library’s collection policies bearing in
Collections                2006-PA-104                                       mind the high costs associated with each acquisition—
                                               Library Services     I.3
Acquisitions Strategy     December 2006                                      Recommendation closed based on decision by the Librarian
                                                                             not to reduce collection levels.
                                                                             Consider expanding recommending officers’ authority to
Collections                2006-PA-104
                                               Library Services    III.3     deselect materials—The Librarian has expressly forbidden
Acquisitions Strategy     December 2006
                                                                             staff to deselect materials without his written approval.
                                                                             Reevaluate the policy of maintaining both analog and
                                                                             digital copies of the same item—Library Services is
                                                                             reluctant to dispose of the analog copies until the life
Collections                2006-PA-104
                                               Library Services     IV.3     expectancy of digital material is certified and it determines
Acquisitions Strategy     December 2006
                                                                             whether digital copies will easily and completely migrate
                                                                             to another (newer or replacement) format given expected
                                                                             future technology changes.
Office of the Chief Financial Officer (OCFO)

Management Control         2004-PA-106            Strategic                  Implement a verification review process—The verification
                                                                    III
Program                    March 2006          Planning Office               review process was implemented in March 2008.

                                                                             Report implementation delays to the Librarian—LCR
Management Control         2004-PA-106            Strategic
                                                                     V       1510-1 effective March 2008 provides for reporting delays
Program                    March 2006          Planning Office
                                                                             to the Librarian.
                                                                             Provide more detail on travel authorizations about the
The Library’s              2006-PA-106
                                                Travel Office       I.1      purpose for trips—Implemented with a new travel directive
Travel Program            September 2007
                                                                             issued in October 2007.
                                                                             Monitor compliance for timely submission of travel
The Library’s              2006-PA-106
                                                Travel Office       I.2      authorizations (TA)—OCFO has implemented new
Travel Program            September 2007
                                                                             procedures to monitor timely submission of TAs.


                                                                                            Semiannual Report to the Congress 19
Implemented Recommendations
Table 3B: 	       Significant Recommendations from Previous Semiannual Reports
                  For Which Corrective Action Was Completed During This Period

        Subject         Report No. and      Office       Rec. No.         Summary of Recommendations and Actions

                                                                    Publicize importance of timely submission of TAs—OCFO
 The Library’s           2006-PA-106
                                         Travel Office     I.3      has implemented new procedures including publicizing
 Travel Program         September 2007
                                                                    compliance with timely submission.
                                                                    Periodically remind travelers of requirement for timely
 The Library’s           2006-PA-106                                submission of TAs—OCFO has implemented new
                                         Travel Office     I.4
 Travel Program         September 2007                              procedures including publicizing the need for compliance
                                                                    with timely submission.
                                                                    Redesign TA form to include a “return to duty station
 The Library’s           2006-PA-106
                                         Travel Office     I.5      date”—OIG agreed to drop this recommendation as the
 Travel Program         September 2007
                                                                    form assumes such a date.
                                                                    Notify traveler when a travel voucher is incomplete—
 The Library’s           2006-PA-106
                                         Travel Office     I.6      Implemented with new travel directive issued in October
 Travel Program         September 2007
                                                                    2007.
                                                                    Create an improved system to track submission of
 The Library’s           2006-PA-106
                                         Travel Office     I.7      vouchers—The Travel Office implemented new procedures
 Travel Program         September 2007
                                                                    for tracking vouchers.
 The Library’s           2006-PA-106                                Improve processing efficiency with more automation—
                                         Travel Office     II.1
 Travel Program         September 2007                              More automated processing has been implemented.
 The Library’s           2006-PA-106                                Use statistical sampling to audit travel claims—Statistical
                                         Travel Office     II.2
 Travel Program         September 2007                              sampling has been implemented for the audits.
                                                                    Introduce performance measurement to assess travel
 The Library’s           2006-PA-106
                                         Travel Office     III      program—Performance measurement tools have been
 Travel Program         September 2007
                                                                    implemented.
 The Library’s           2006-PA-106                                Lock up employee travel documents—Files are now
                                         Travel Office     IV
 Travel Program         September 2007                              locked.




                                                                                       Opposite: Rough draft of the Declaration
                                                                                       of Independence, Creating the United States




20 Semiannual Report to the Congress
Semiannual Report to the Congress 21
       Funds Questioned or Put to Better Use
        Table 4:	         Audits with Recommendations for Better Use of Funds
        Reports…                                                                      Number   Value
        …for which no management decision was made by the start of the period:          -        -

        …issued during the period:                                                      -        -
                                                                           Subtotal     -        -
        …for which a management decision was made during the reporting period:

                value of recommendations agreed to by management                        -        -

                value of recommendations not agreed to by management                    -        -

        …for which no management decision was made by the end of the reporting
                                                                                        -        -
        period:

        …for which no management decision was made within six months of
                                                                                        -        -
        issuance:


        Table 5:	         Audits with Questioned Costs
        Reports…                                                                      Number   Value
        …for which no management decision was made by the start of the period:          -        -
        …issued during the period:                                                      -        -
                                                                           Subtotal     -        -
        …for which a management decision was made during the reporting period:

                    value of recommendations agreed to by management                    -        -

                    value of recommendations not agreed to by management                -        -

        …for which no management decision was made by the end of the reporting
                                                                                        -        -
        period:
        …for which no management decision was made within six months of issu-
        ance:                                                                           -        -




22 Semiannual Report to the Congress
Instances Where Information or
Assistance Requests Were Refused
No information or assistance requests were refused during this period.

Status of Recommendations
Without Management Decisions
During the reporting period there were no recommendations more than six months old without management
decisions.


Significant Revised Management Decisions
During the reporting period there were no significant revised management decisions.


Significant Management Decisions
With Which OIG Disagrees
During the reporting period there were no significant disagreements with Library management about decisions on OIG
recommendations.


Follow-up on Prior Period Recommendations
In this semiannual period, we followed up on all open recommendations from our prior semiannual period. Com-
ments on the status of individual recommendations appear in table 3A. Recommendations implemented during the
period appear in table 3B.




                                                                                      Semiannual Report to the Congress 23
       Other Activities
       National Archives and                                           Report to the House Committee on
       Records Administration                                          Oversight and Government Reform on
       Office of the Inspector General                                 Unimplemented OIG Recommendations

       Peer Review of the Audit Operations of
       the Office of the Inspector General                             January 2008

       Special Project No. 2008-SP-102
       March 2008                                                      In response to a request to all government agencies from
                                                                       the Chairman of the House Oversight and Government
       Offices of Inspectors General are required, as part of an       Reform Committee, we prepared a schedule of OIG
       overall quality control program, to undergo a peer review.      recommendations made to the Library of Congress since
       The peer review, typically conducted by another OIG,            January 1, 2001, that the Library had not implemented
       consists of an in-depth review of the documented system         as of January 30, 2008. The Chairman sought this
       of quality control, along with a rigorous examination of        information as part of the Oversight Committee’s ongoing
       sample products.                                                work of monitoring the efficiency and effectiveness of
                                                                       federal programs and eliminating wasteful government
       We conducted a peer review of the quality control system        spending.
       of the National Archives and Records Administration’s
                                                                       The schedule that we sent to the Chairman included 22
       Office of the Inspector General (NARA/OIG) that was in
                                                                       unimplemented OIG recommendations pertaining to ten
       effect for fiscal year 2007. Elements of the system included
                                                                       audits. It provided:
       NARA/OIG’s organizational structure and the policies and
       procedures the office established to perform its audit work.    •	 identifying data, including OIG report numbers and
       Our objective was to determine whether the system was           issue dates, for the audits to which the recommendations
       designed to provide reasonable assurance that its application   related;
       would result in work conforming to the generally accepted       •	 a summary of the objectives and key findings of the
       government auditing standards (GAGAS) promulgated by            audits to which the recommendations related;
       the U.S. Comptroller General.
                                                                       •	 a summary of each unimplemented recommendation;

       Based on our evaluation and selective tests, we concluded       •	 the status of each recommendation, including whether
       that NARA/OIG’s quality control system in effect for fiscal     or not the Library agreed to it and the reason for its delayed
       year 2007 was designed to meet GAGAS, and that the              implementation;
       office’s audit work conformed to the system. Accordingly,       •	 an estimate, if applicable, of cost savings available from
       we believe there is reasonable assurance that NARA/OIG’s        the recommendation’s implementation; and
       audit work in fiscal year 2007 conformed to applicable
                                                                       •	 a description of non-monetary benefits from the
       auditing standards, policies, and procedures. We provided
                                                                       recommendation’s implementation.
       specific proposals for enhancing the system to the NARA
       OIG that did not affect our overall conclusions about the
       system. The NARA OIG concurred with our findings and
       conclusions.




24 Semiannual Report to the Congress
Congressional Request Relating to
OIG Law Enforcement Authority

March 2008


During this reporting period, we responded to a series of
questions raised at the March 5, 2008 House Legislative Branch
Appropriations Subcommittee hearing on the fiscal year 2009
Library appropriation concerning our law enforcement authority
and purchase of firearms.


In early March, we provided a member of the Subcommittee
a package of materials which included documentation on our
purchase of firearms, acquisition of law enforcement authority
through special deputation from the U.S. Marshals Service, and
the legal opinions and congressional approvals relating to this
matter. Later in March, we provided to the Subcommittee a
second, more comprehensive package, which included a fuller
discussion of the legal framework for our law enforcement
authority, the separation of powers issue, and our use of this
authority.




                                                                  Semiannual Report to the Congress 25
      Review of Legislation and Regulations
        Table 6:            Review of Library of Congress Regulations
                   LCR Reviewed                         Comments by the Office of The Inspector General

        LCR 1615-1                       We made several recommendations to improve controls in this area; however, the
        Inventory Control of Equipment   subsequent reporting of a material weakness in the fixed asset control system by the
        and Furniture Owned or Leased    external auditors prompted us to request that further consideration of this LCR be
        by the Library of Congress       postponed until OCFO and ISS could redesign the system.

        LCR 217
        Functions and Organization of the We had no comment on this proposed regulation.
        Congressional Research Service


        LCR 1510-1                       We made several recommendations to help clarify the standards that the Library
        Internal Control Program         would apply to its internal control program.


        LCR 2122
                                         We had no comment on this proposed regulation.
        Licensing Agreements

        LCR 1810-2
                                         We made numerous suggestions to help clarify terminology in this proposed
        Access to Library
                                         LCR.
        Buildings and Collections

                                         We recommended some clarifications to the language of the LCR. In addition, we
        LCR 1811
                                         made recommendations to improve control over identification cards of contractors
        Employee Identification Cards
                                         and staff leaving Library employment.

                                         We compared the proposed LCR to those in place in several other benchmark
        LCR 2015-14                      agencies, such as the Office of Personnel Management and Government
        Absence Without Official Leave   Accountability Office. Based on this review, we made numerous recommendations
                                         that we believe will help staff better understand the provisions of the LCR.
        LCR 1621                         We had several comments on this regulation, mostly dealing with clarifying definitions
        Staff Use of the Internet,       and enhancing standards of conduct related to electronic communications. We
        Computers, and Electronic        believe our recommendations brought the LCR closer to best practices in the
        Communications Systems           federal government.
        LCR 2017-1
        Employee Training                We had no comment on this proposed regulation.
        and Development

        LCR 1510                         We recommended specifying that the Chief Financial Officer is responsible for
        Financial Management             preparing the Library’s annual financial statements.




                                                              Opposite: Biblia Latina (the Giant Bible of Mainz), Lessing J. Rosenwald Collection




26 Semiannual Report to the Congress
Semiannual Report to the Congress 27
    Organizational Chart

                                                           Inspector General
               Counsel to the IG                                                                 Administrative officer
                                                           Karl W. Schornagel
               Judith K. Leader, Esq.                      CPA                                   Sheetal Gupta
               (part-time)




                      Assistant Inspector                                                     Assistant Inspector
                      General for audits                                                      General for Investigations
                      Nicholas G. Christopher, Esq., CPA                                      Kenneth R. Keeler




       Senior Auditor                          Senior Auditor                   Special Agent                        Special Agent
                                                                                Pamela D. Hawe                       Donya M. Jackson
                                               Patrick J. Cunningham
      John W. Kane                                                              (Part-time)                          (Part-time)
                                               CIA




                                                                                Management                           Investigator
       Auditor                                 Senior Auditor
                                                                                Analyst                              Barbara A. Hennix
      Vacant                                   John R. Mech
                                               CPA                              Michael R. Peters




       Auditor                                 IT Specialist
      Cornelia E. Jones                        Lawrence Olmsted




       Auditor                                 Auditor
      Sherry D. Angwafo                        Vacant
      Esq.




      Auditor                                  Auditor
      Vacant                                   Vacant




      Management
      Analyst
      Peter TerVeer




28 Semiannual Report to the Congress
Inspector General Hotline

     Help Promote Integrity, Economy, and Efficiency

 Report Suspected Fraud, Waste, Abuse, or Mismanagement

          Complaints May be Made Anonymously




                    Inspector General

                   Library of Congress
              101 Independence Avenue, S.E.
                          LM-630

               Washington, DC 20540-1060




     Main Telephone Number:     (202) 707-6314

                Fax Number:     (202) 707-6032

   Hotline Telephone Number:    (202) 707-6306

              Hotline E-mail:   oighotline@loc.gov

                   P .O. Box:   15051 S.E. Station
                                Washington, DC 20003


  Any information you provide will be held in confidence.
However, providing your name and a means of communicating
      with you may enhance our ability to investigate.
